Report No. D-2007-040      January 2, 2007




        The General and Application
         Controls over the Financial
        Management System at the
          Military Sealift Command
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

BIA                   Business Impact Analysis
CCR                   Configuration Change Request
CM                    Configuration Management
COMSC                 Commander, Military Sealift Command
COMSCINST             Commander, Military Sealift Command Instruction
DITSCAP               DoD Information Technology Systems Certification and
                         Accreditation Program
FMR                   Financial Management Regulation
FMS                   Financial Management System
IA                    Information Assurance
ICCR                  Internal Configuration Change Request
IT                    Information Technology
MCDC                  Military Sealift Command Corporate Data Center
MCP                   Mission Continuity Plan
MSC                   Military Sealift Command
NIST                  National Institute of Standards and Technology
OMB                   Office of Management and Budget
SP                    Special Publication
SSAA                  System Security Authorization Agreement
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                          January 2,2007
MEMORANDUM FOR THE NAVAL INSPECTOR GENERAL
SUBJECT: Report on the General and Application Controls over the Financial
         Management System at the Military Sealift Command
         (Report No. D-2007-040)

        We are providing this report for review and comment. In preparing the final
report, we considered the comments received from the Director, Office of Financial
Operations, Assistant Secretary of the Navy (Financial Management and Comptroller).
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Director, Office of Financial Operations, Assistant Secretary of the Navy (Financial
Management and Comptroller) comments were partially responsive (see the Management
Comments Required table at the end of the finding sections). As a result of management
comments, we revised recommendations E.3. and H. 1.b. to clarify the intent of the
recommendations. Therefore, we request that the Director, Office of Financial
Operations, Assistant Secretary of the Navy (Financial Management and Comptroller)
provide comments on the final report to include corrective actions and milestones by
February 1,2007.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDCLEV@dodi~.rnil.Copies of the management comments
must contain the actual signature of the authorizing official. We cannot accept the I
Signed I symbol in place of the actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Edward A. Blair at (216) 706-0074 ext. 226 or Gregory M. Mennetti at (216) 706-0074
ext. 267. See Appendix B for the report distribution. The team members are listed inside
the back cover.
                              By direction of the Deputy Inspector General for Auditing:



                                        pa&. Granetto, CPA
                               Assistant Inspector General and Director
                                 Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2007-040                                                    January 2, 2007
   (Project No. D2005-D000FC-0247.000)

         The General and Application Controls over the Financial
          Management System at the Military Sealift Command

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel who manage and use the
Financial Management System will find this report of interest. DoD information
assurance program supervisors may also find the report useful. It discusses whether the
Financial Management System’s general and application controls were adequately
designed and operating effectively.

Background. To support the Department’s goal to achieve auditability, the Department
of Defense Office of Inspector General launched a long-range strategy to conduct audits
of DoD financial statements. The reliability of information in Military Sealift Command
Financial Management System directly impacts the Military Sealift Command and the
Department of the Navy’s ability to produce reliable, and ultimately auditable, financial
statements, which is key to achieving the goals of the Chief Financial Officers Act
of 1990 (Public Law 101-576). This audit was conducted to assist the Military Sealift
Command and the Department of the Navy in identifying and strengthening controls over
Military Sealift Command Financial Management System to improve the reliability of
financial information.

The Financial Management System is an accounting information system that accumulates
and reports financial data for the Military Sealift Command. The Financial Management
System provides support for fund and obligation control, budget execution and
expenditure accounting, reimbursable accounting, miscellaneous accounting
(disbursements and collections), general ledger control, and financial reporting.

Results. We identified several internal control weaknesses that were critical to the
operations of the Military Sealift Command. The weaknesses found were related to
entity-wide security program planning and management (finding A), access controls
(finding B), software development and change controls (finding C), system software
(finding D), segregation of duties (finding E), service continuity (finding F),
authorization (finding G), and accuracy (finding H). The deficient controls created
system vulnerabilities that potentially jeopardize the integrity, confidentiality, and
availability of data reported by the Financial Management System. The Commander,
Military Sealift Command must address these vulnerabilities as required by Federal and
DoD criteria outlined in the report. See the finding sections of the report for detailed
recommendations.

We also reviewed the managers’ internal control program as it related to the Financial
Management System. The Military Sealift Command managers’ internal control program
did not identify the control weaknesses.
Management Comments and Audit Response. The Director, Office of Financial
Operations, Assistant Secretary of the Navy (Financial Management and Comptroller)
comments were partially responsive and generally concurred with the audit findings and
the intent of all except one recommendation.

The Director, Office of Financial Operations, Assistant Secretary of the Navy (Financial
Management and Comptroller) concurred in principle with the recommendation requiring
vacations or job rotations for those employees with “privileged” access to the Financial
Management System. They are currently reexamining the entire process as it relates to
strong internal controls over system access. They are also working toward eliminating
“privileged” access to the extent possible. The Director concurred in part with the
recommendation to incorporate the New Employee Form used in assigning and
documenting responsibilities in the Financial Management System. They are currently
revising the New Employee Form for Financial Management System access to advise the
Financial Systems Office of the specific system duties to be performed by the requestor.
We revised this recommendation to include a brief description of the employee’s specific
duties within the New Employee Form for use in assigning and documenting
responsibilities within the Financial Management System. The Director concurred in part
to the recommendation requiring accuracy checks and periodic testing of validation and
edit checks of calculated data. He disagreed with the periodic testing portion of the
recommendation because the Financial Management System is an Oracle
commercial-off-the-shelf software package certified by the Joint Financial Management
Improvement Program that they have not customized. We revised this recommendation
to clarify our intent and believe actions should be taken because modifications to
software increase project risk exponentially, therefore, the additional control of
periodically testing critical computations would provide a control to mitigate the risk of
the system being altered without detection.

We request that the Director, Office of Financial Operations, Assistant Secretary of the
Navy (Financial Management and Comptroller) comment on this report by February 1,
2007. See the Finding sections of the report for a discussion of management comments
and the Management Comments sections for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                 i



Background                                                        1


Objectives                                                        2


Review of Internal Controls                                       3


Findings
     A.   Entity-Wide Security Program Planning and Management    7
     B.   Access Controls                                        12
     C.   Software Development and Change Control                17
     D.   System Software                                        22
     E.   Segregation of Duties                                  26
     F.   Service Continuity                                     32
     G.   Authorization                                          39
     H.   Accuracy                                               42

Appendixes
     A. Scope and Methodology                                    45
         Prior Coverage                                          47
     B. Report Distribution                                      48

Management Comments
     Department of the Navy                                      49
Background
    To support the Department’s goal of achieving auditability, the Department of
    Defense Office of Inspector General launched a long-range strategy to conduct
    audits of DoD financial statements. The Chief Financial Officers Act
    of 1990 (Public Law 101-576), as amended, mandates that agencies prepare and
    conduct audits of financial statements. The reliability of information in Military
    Sealift Command (MSC) Financial Management System (FMS) directly impacts
    the MSC and Department of the Navy’s ability to produce reliable, and ultimately
    auditable, financial statements; which is key to achieving the goals of the Chief
    Financial Officers Act of 1990 (Public Law 101-576). The audit provided an
    evaluation of the general and application controls over FMS.

    The Financial Management System. MSC FMS was implemented from Oracle
    E-Business Suite 11i, a commercial-off-the-shelf core accounting product, in
    July 2000. The applications in Oracle E-Business Suite 11i use a unified data
    model that allows storage of transactions, business intelligence, and financial
    assets in one place. Oracle E-Business Suite 11i was tested and certified as Joint
    Financial Management Improvement Program compliant. The Sun Solaris v5.8
    operating system houses the FMS production application. FMS accumulates and
    reports financial data for MSC in addition to providing support for fund and
    obligation control, budget execution and expenditure accounting, reimbursable
    accounting, miscellaneous accounting (disbursements and collections), general
    ledger control, and financial reporting.

    Mission and Functions at MSC Headquarters Washington Navy Yard, D.C.
    MSC is composed of approximately 10,800 civilian and military personnel with
    various locations worldwide and provides transportation services to the Armed
    Forces. The mission of MSC is to provide ocean transportation of equipment,
    fuel, supplies, and ammunition to sustain U.S. forces worldwide during peacetime
    and in war for as long as operational requirements dictate. MSC provides the sea
    transportation component for the United States Transportation Command. MSC
    is financed through two working capital funds, the Navy Working Capital Fund
    and the Transportation Working Capital Fund. This means MSC is a
    fee-for-service organization and earns money through products and services
    provided to their customers. MSC receives funding from the Armed Services for
    providing these logistics and shipping services. The cost of MSC operations in
    FY 2005 exceeded $3.1 billion.

    Command, Control, Communications, and Computer Systems Directorate.
    The Command, Control, Communications, and Computer Systems Directorate
    (Computer Systems Directorate) department is tasked with oversight of the
    application of technical solutions for FMS. The Computer Systems Directorate
    mission is to direct and manage the development of capital planning and
    investment strategy; the implementation of the requirements of the Government
    Performance and Results Act with respect to Information Technology; the
    development and application of electronic commerce tools and electronic data
    interchange policies, practices, standards, and procedures; and the execution of
    Computer Systems Directorate programs. The Computer Systems Directorate is
    also required to validate the implementation of appropriate physical access
    controls, technical security measures, classification, and safeguarding of

                                         1
    controlled information rules. The Computer Systems Directorate Director of
    Operations is responsible for managing information technology (IT) infrastructure
    for MSC organizations, including MSC connectivity for the Internet, client-server
    mainframe systems, and Headquarters site classified and unclassified operations,
    including the MSC Corporate Data Center (MCDC). The Computer Systems
    Directorate Director of Engineering is responsible for controlling the integration
    and engineering of IT solutions by issuing policy, overseeing the IT program,
    performing Database and Systems Administration functions, and maintaining and
    operating databases and applications systems including FMS.

    Financial Management Analysis Division, Comptroller Directorate. The
    Financial Management Analysis Division, Comptroller Directorate (Comptroller
    Directorate) is tasked with oversight and creating functional solutions for the
    financial system. The Comptroller Directorate mission is to study, develop, and
    implement financial data systems, research and implement changes in financial
    systems; ensure conformance with prescribed policies and procedures relating to
    financial management and internal controls; act as liaison for internal and external
    audit groups; follow up on the status of actions to be taken on recommendations
    contained in audit reports; and coordinate training in the financial management
    area. The Comptroller Directorate employs the functional administrators for
    FMS.
    MSC Corporate Data Center. The MCDC is located in Building 196 on the
    Washington Navy Yard. Space and Naval Warfare Systems Center provides
    MSC with space in Building 196 for the MCDC. The MCDC is the workspace of
    MSC contractors tasked with the administration of FMS, which resides on a
    server in the MCDC lab room. The MCDC provides problem resolution, research
    and development, expert advice, and trouble call tracking services to MSC. The
    primary objectives of the MCDC are to:

           •   establish and maintain a support center that provides global
               information and infrastructure services;

           •   provide services to various developers, data warehouse, and consulting
               staff members;

           •   enforce the MSC configuration management standards;
           •   plan effectively for the introduction of new products and upgrades;
               and

           •   establish and maintain a high standard of support.

    The Computer Systems Directorate provides Government oversight for the
    contractors in the MCDC.


Objectives
    The overall objective was to determine whether the general and application
    controls over the FMS at the MSC were adequately designed and operating

                                         2
          effectively. We also evaluated the managers’ internal control program at the
          MSC as applicable to the audit objectives. See Appendix A for a discussion of
          the scope and methodology and prior coverage related to the objectives.


Review of Internal Controls
          DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
          DoD Instruction 5010.40, “Management Control Program Procedures,”
          August 28, 1996, 1 require DoD managers to implement a comprehensive system
          of internal controls that provides reasonable assurance that programs are
          operating as intended and to evaluate the adequacy of the controls.

          Scope of the Review of the Managers’ Internal Control Program. We
          reviewed the adequacy of the general and application controls, and management’s
          self-evaluations of those controls, over the FMS at the MSC.

          Adequacy of Internal Controls. We identified material control weaknesses as
          defined by DoD Instruction 5010.40. MSC internal controls did not ensure that
          an entity-wide security program plan and management was properly documented
          and enforced. In addition, MSC did not ensure that access controls were
          adequately designed or operating effectively, software change controls were
          adequately implemented, system software controls were adequately designed and
          operating effectively, segregation of duties principles were properly enforced,
          service continuity plans were designed and tested for effectiveness, and the
          application controls in place were working effectively and efficiently.

                   •   Entity-Wide Security Program Plan and Management. MSC
                       internal controls did not ensure that the entity-wide security program
                       plan was compliant with OMB Circular A-130, Appendix III,
                       “Security of Federal Automated Resources,” and DoD 8510.1-M,
                       “DoD Information Technology Systems Certification and
                       Accreditation Program (DITSCAP),” July 31, 2000. In addition, MSC
                       did not ensure that the security management structure was adequately
                       documented, the checkout process for separating employees was
                       properly enforced, and the effectiveness of the security program was
                       adequately being monitored. Recommendation A.1., if implemented,
                       will bring the Enterprise and FMS System Security Authorization
                       Agreements (SSAA) into compliance with OMB and DoD guidance.
                       Recommendation A.2. and A.3., if implemented, will strengthen
                       controls over the security management structure. Recommendation
                       A.4., if implemented, will strengthen controls over the employee
                       check-out process. Recommendation A.5., if implemented, will
                       provide a means for tracking and correcting previously identified
                       vulnerabilities.

1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on
    January 4, 2006.

                                                    3
•   Access Controls. MSC internal controls did not ensure that the list of
    authorized users was current, physical controls over the MCDC were
    adequate, fire suppression system was routinely inspected and
    properly maintained, FMS password parameters enforced DoD strong
    passwords, privileged user accounts were adequately controlled, and
    system logon functions locked users out of FMS after three
    unsuccessful logon attempts. Recommendation B.1., a. through b., if
    implemented, will strengthen controls for maintaining an active user
    account list for FMS. Recommendation B.2., a. through b., if
    implemented, will increase the effectiveness of the physical access
    controls over the MCDC. Recommendation B.3., if implemented, will
    provide assurance that the fire suppression system over FMS system
    servers is properly maintained and working correctly.
    Recommendation B.4., if implemented, will improve controls for user
    accountability in FMS. Recommendation B.5., if implemented, will
    initiate a system change to comply with DoD minimum password
    requirements in DoD Instruction 8500.2, “Information Assurance
    Implementation,” February 6, 2003. Recommendation B.6., if
    implemented, will mitigate the risk of unauthorized individuals
    accessing the system.
•   Software Development and Change Control. MSC internal controls
    did not ensure that processing features and program modifications
    were adequately documented; revised software was adequately
    documented, tested, and approved; and software libraries were
    adequately controlled. Recommendation C.1., if implemented, will
    provide a process for documenting, authorizing, and approving each
    phase of all software changes. Recommendation C.2., and C.3.,
    a. through d., if implemented, will document and develop an audit trail
    for all configuration change. Recommendation C.4., a. through c., if
    implemented, will strengthen controls for software libraries and
    software migration.

•   System Software. MSC internal controls did not ensure that system
    administrator access was properly authorized, the administrator
    account was controlled, and system software utilities were
    appropriately used and monitored. Recommendation D.1., if
    implemented, will strengthen the controls over the authorization of
    access to system software by system personnel. Recommendation
    D.2., if implemented, will increase the evidence of an audit trail for the
    ‘root’ administrator account. Recommendation D.3., if implemented,
    will satisfy the requirement set forth in OMB Circular A-123,
    “Management’s Responsibility for Internal Control,” July 2005.
    Recommendation D.4., if implemented, will strengthen controls over
    MCDC personnel activities.
•   Segregation of Duties. MSC internal controls did not ensure that
    segregation of incompatible duties was taking place, job descriptions
    were adequately documented, operating procedures for both system
    configuration and operational use were clearly documented, and
    proper supervision of MCDC personnel activity within FMS was
    conducted. Recommendation E.1., if implemented, will increase

                              4
    assurance that users are not assigned incompatible responsibilities in
    FMS. Recommendation E.2., if implemented, will decrease the risk of
    fraud and raise awareness of segregation of duties principles and
    practices. Recommendation E.3., if implemented, will strengthen
    controls over authorization of a user’s responsibilities in FMS.
    Recommendation E.4., a. through c., if implemented, will increase
    assurance that operating procedures for system configuration and
    operational use are clearly documented. Recommendation E.5., if
    implemented, will satisfy the requirement set forth in Commander,
    Military Sealift Command Instruction 5239.3A, “Military Sealift
    Command Information Assurance Policy,” October 14, 2003.

•   Service Continuity. MSC internal controls did not ensure that
    emergency processing priorities were properly established; a proper
    data and program backup process was implemented; adequate
    environmental controls were implemented; staff were trained for
    emergency situations; steps were taken to ensure the prevention and
    minimization of potential damage and interruption of the system in the
    event of a contingency; and fully develop, document, and test a
    comprehensive contingency plan. Recommendation F.1., if
    implemented, will increase assurance that the MSC Mission
    Continuity Plan (MCP) is consistent with the National Institute of
    Standards and Technology (NIST) Special Publication (SP) 800-34,
    “Contingency Planning Guide for Information Technology Systems,”
    June 2002. Recommendation F.2., a. through c., if implemented, will
    strengthen controls over backups of FMS data. Recommendation F.3.,
    if implemented, will increase assurance that the environmental control
    devices over MSC resources are maintained and working properly.
    Recommendation F.4., if implemented, will strengthen controls over
    emergency processing procedures and increase personnel awareness of
    their responsibilities in the event of an emergency. Recommendation
    F.5., if implemented, will increase assurance that information systems
    are performing adequately and an alternate data processing site is
    available in the event of an emergency. Recommendation F.6., if
    implemented, will satisfy requirements set forth in DoD
    Instruction 8500.2, “Information Assurance Implementation,”
    February 6, 2003, requiring a Mission Assurance Category II system
    to be operational within 24 hours of an emergency. Recommendation
    F.7., if implemented, will increase controls over manual processing
    procedures in the event of an emergency. Recommendation F.8., if
    implemented, will increase the effectiveness of teleworking
    capabilities in the event of an emergency.

•   Authorization. MSC internal controls did not ensure that all fuel
    transactions were supported by source documents and were reviewed
    by a third party. Recommendation G.1., if implemented, will
    strengthen controls and provide an audit trail over recording fuel
    purchasing transactions.




                             5
       •   Accuracy. MSC internal controls did not ensure that data entry design
           features contributed to the accuracy of financial data, transaction
           errors were reviewed after corrections had been made, and sensitive
           financial reports were protected from unauthorized access.
           Recommendation H.1., a. through b., if implemented, will strengthen
           controls over data accuracy in FMS.

A copy of the report will be provided to the Commander of the Military Sealift
Command.

Adequacy of Management’s Self-Evaluation. Management performs
self-evaluations to identify the processes used for conducting day-to-day
operations. Management self-evaluations did not identify all of the material
control weaknesses found during this audit. This occurred because the
self-evaluations did not review those specific areas as part of their processes used
for conducting business. Therefore, MSC did not identify or report all the
material internal control weaknesses found by the audit.




                                     6
           A. Entity-Wide Security Program
              Planning and Management
           MSC did not adequately design entity-wide security program planning and
           management general controls to operate effectively. Specifically, MSC
           did not document a complete entity-wide security program; establish the
           security management structure; comply with security related personnel
           procedures; and monitor the effectiveness of the information system
           security program. MSC did not adequately:

                  •   document the security plan because management did not
                      follow OMB and DoD policies,

                  •   establish the security management structure because
                      management did not follow policies and procedures that
                      require documentation of an organization chart and
                      appointment letters,
                  •   comply with security-related personnel procedures because the
                      checkout procedure was not enforced, and

                  •   monitor the effectiveness of the information system security
                      program because management did not plan and approve
                      corrective actions for recommendations.

           As a result, the security planning and internal control weaknesses increase
           the risk to information systems security.


Entity-Wide Security Program Planning and Management
  Controls
    A program for security planning and management is the foundation of an entity’s
    security control structure. The program should establish a framework and
    continuing cycle of activity for assessing risk, developing, implementing, and
    monitoring effective security procedures. MSC did not adequately design and
    document controls over information systems security planning and management.


Entity-Wide Security Program Plan
    MSC did not document a complete information systems security program plan.
    The Enterprise SSAA documents the unclassified and classified local area
    networks, Afloat Network Operations Center, MCDC, and selected MSC
    applications; and was provided as the general support system security program
    plan. The FMS SSAA documents the financial application, and was provided as
    the major application security program plan. OMB Circular A-130, Appendix III,
    “Security of Federal Automated Resources,” and DoD 8510.1-M, “DoD
    Information Technology Systems Certification and Accreditation Program
                                        7
(DITSCAP),” July 31, 2000, require organizations to review and document the
security controls of general support systems and major applications. MSC did not
properly document an information systems security review because management
did not adhere to OMB and DoD policy.

MSC Enterprise SSAA Comparison to OMB Guidance. OMB Circular
A-130, Appendix III requires agencies to implement and maintain a program to
assure that adequate security is provided for all agency information collected,
processed, transmitted, stored, or disseminated in general support systems. The
MSC Enterprise SSAA did not meet the documentation requirements, including:

       •   System Security Plan. Training, personnel controls, continuity of
           support, and system interconnection were not included or not
           adequately documented.

       •   Review of Security Controls. The Enterprise SSAA, Appendix H,
           does not include test procedures or system test and evaluation plan
           results.
       •   Authorized Processing. MSC approving officials did not sign or date
           the Enterprise SSAA.

FMS SSAA Comparison to OMB Guidance. OMB Circular A-130, Appendix
III requires agencies to implement and maintain a program to assure that adequate
security is provided for all agency information collected, processed, transmitted,
stored, or disseminated by major applications. The MSC FMS SSAA did not
meet the documentation requirements, including:

       •   System Program Plan. The FMS SSAA did not provide adequate
           documentation of application controls and technical controls.

       •   Authorized Processing. MSC approving officials did not sign or date
           the FMS SSAA.

FMS SSAA Comparison to DoD Guidance. DITSCAP provides a standard
certification and accreditation process for DoD Information Technology systems.
Management did not sign the FMS SSAA, follow the required document
structure, and include the following sections as required by the DITSCAP:
       •   Training,
       •   DITSCAP Plan,
       •   System Concept of Operations,
       •   Information System Security Policy,
       •   Incident Response Plan,
       •   Contingency plans,
       •   Personnel controls and Technical controls,
       •   System Interface Agreements (Memorandums of Agreement), and
       •   Security Education, Training, and Awareness Plan.

MSC did not prepare the security program plans in compliance with OMB and
DoD guidance. As a result, management may not identify risks to the general
support system and major application. With a well-designed program following

                                    8
    OMB and DoD guidance, MSC could ensure that responsibilities are clear,
    understandable, and properly implemented; and security controls are adequate and
    consistently applied.


Security Management Structure
    MSC did not adequately establish the information systems security management
    structure. Specifically, MSC did not have an organization chart that identified
    personnel and their titles for the Computer Systems Directorate. The
    Implementation Guide for OMB Circular A-123, “Management’s Responsibility
    for Internal Control,” July 2005 directs management to become more proactive in
    overseeing internal controls related to financial reporting. It further explains that
    management should document key processes and controls, which include
    organization charts. In addition, MSC did not document, as required by DoD
    Instruction 8500.2, appointment letters for two of the five Information Assurance
    personnel. MSC did not adequately establish the information systems security
    management structure because management did not follow policies and
    procedures that require documenting an organization chart and appointment
    letters. As a result, it could not be determined who was responsible for systems
    security duties; and whether security personnel had the appropriate authority,
    training, and security clearance to perform their duties.


Security-Related Personnel Procedures
    MSC did not adequately checkout employees who had separated from the
    activity. Commander, Military Sealift Command Instruction
    (COMSCINST) 5510.8F, “COMSC Information and Personnel Security
    Regulation,” October 4, 2001, Exhibit F is a checkout form for personnel to
    complete prior to leaving the activity. From June 1, to August 31, 2005 five
    employees with FMS access separated from MSC. MSC could only provide a
    checkout form for one of the five employees who separated. In addition,
    management in the Accounting Office could not identify the authorizing initials
    on the provided checkout form. All five of the employees’ FMS user accounts
    remained active subsequent to there separation. MSC did not properly process
    separated employees because management did not follow the established
    procedures. As a result, there is an increased risk of unauthorized access by
    former employees, who could alter or delete financial data. MSC should comply
    with the checkout procedures to mitigate this risk.


Information Systems Security Program
    MSC did not adequately monitor the effectiveness of the security program. A
    contractor performed a risk assessment in conjunction with the last DITSCAP
    review for MSC FMS in 2003. The contractor made 24 recommendations to
    mitigate risks identified. MSC did not adequately monitor the effectiveness of the
    security program because IT security management did not document and approve

                                          9
    a remediation plan and corrective actions. As a result, 11 of the 24
    recommendations remained outstanding that increase risks to system integrity,
    confidentiality, and availability. A plan of action and milestones for all
    recommendations would provide a means and identify responsibilities for
    correcting weaknesses.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Commander, Military Sealift Command:

           1. Follow Office of Management and Budget Circular A-130,
    Appendix III, “Security of Federal Information Resources,” and
    DoD 8510.1-M, “DoD Information Technology Systems Certification and
    Accreditation Program (DITSCAP),” July 31, 2000, when completing the
    next Military Sealift Command Enterprise and Financial Management
    System, System Security Authorization Agreements to identify and document
    security planning and internal controls.
           2. Document an organization chart for the Computer System
    Directorate that includes a description of all positions, responsibilities, and
    the names of personnel holding those positions to ensure that employees have
    the necessary authority to carry out their duties.

           3. Create and maintain appointment letters for systems security
    personnel, including the Military Sealift Command Certification Authority
    and the Military Sealift Command Enterprise Information Systems Security
    Manager.

           4. Follow the Commander, Military Sealift Command
    Instruction 5510.8F, “COMSC Information and Personnel Security,”
    October 4, 2001 by using the checkout procedure for each employee leaving
    the activity.
         5. Document a remediation plan of action and milestones for all
    recommendations for the vulnerabilities identified in the 2003 Financial
    Management System risk assessment and future systems security
    recommendations.

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred.

    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of
    the Navy (Financial Management and Comptroller) did not identify the proposed
    action(s) and completion date(s) related to strengthening entity-wide security
    program planning and management general controls. We request that the
    Department of the Navy provide a plan of action with milestones in its comments
    on the final report for documenting the remediation plan.

                                       10
Management Comments Required
    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 1.


                       Table 1. Management Comments Required

                                                    Concur/      Proposed   Completion
     Recommendation           Organization         Nonconcur      Action      Date

     A.1.                Department of the Navy        —            X            X

     A.2.                Department of the Navy        —            X            X

     A.3.                Department of the Navy        —            X            X

     A.4.                Department of the Navy        —            X            X

     A.5.                Department of the Navy        —            X            X




                                        11
            B. Access Controls
            MSC did not adequately design access controls to operate effectively.
            Specifically, MSC did not maintain a current list of authorized users and
            establish physical and logical controls to prevent or detect unauthorized
            access or modifications, and protect system information from physical and
            environmental damage. MSC did not maintain a current list of authorized
            users because management did not establish a policy for periodic review.
            MSC did not establish physical and logical controls to prevent or detect
            unauthorized access or modifications, and protect system information
            from physical and environmental damage because management did not
            develop or enforce policies and procedures requiring adequate access
            controls. As a result, these weaknesses increase the risk of unauthorized
            access, software modification or deletion, and physical or environmental
            damage to MSC resources.


Physical and Logical Access Controls
     Physical and logical access controls should provide reasonable assurance that
     organizations protect computer resources (data files, application programs, and
     computer-related facilities and equipment) against unauthorized modification,
     disclosure, loss, or impairment. Physical controls include activities such as
     keeping computers in locked rooms to limit physical access. Logical controls
     include preventative measures such as security software programs designed to
     prevent or detect unauthorized access to sensitive files. MSC had access control
     weaknesses in both physical and logical access controls.


Maintain a Current List of Authorized Users
     MSC did not maintain a current list of authorized users. Specifically,
     management did not disable active user accounts in a timely manner upon
     personnel terminating their employment. During a 90-day period from June 1 to
     August 31, 2005, five individuals with access to FMS left the activity. As of
     November 1, 2005, all five of the individuals still had active accounts in FMS.
     Additionally, one out of the five user accounts accessed the system multiple times
     after the user’s separation date. The NIST SP 800-12, “An Introduction to
     Computer Security,” chapter 10, October 1995, recommends that management
     terminate access to the system in a timely manner (during out-processing
     procedures) and, in case of an unfriendly termination, access should be removed
     at the same time (or just before) the employee is notified of dismissal. MSC did
     not maintain a current list of authorized users because management did not
     establish a policy for periodic review to ensure the disabling of separated
     employee accounts. As a result, there is an increased risk for separated
     employees to access FMS, damage system operations, and alter data within the
     system, which could lead to misstatements of financial data. Management could
     mitigate risks by strengthening controls, such as reviewing access lists, and
     following policies and procedures when employees leave the organization.


                                         12
Establish Physical and Logical Controls
     MSC did not establish adequate physical and logical controls to prevent or detect
     unauthorized access or modifications, and protect system information.
     Specifically the following controls were inadequate: physical security, fire
     suppression, user accounts, and application logon parameters. MSC did not
     establish physical and logical controls to prevent or detect unauthorized access or
     modifications, and protect system information because management did not
     develop or enforce policies and procedures requiring these controls.

     Physical Security. The physical security controls over the MCDC were
     inadequate. The NIST SP 800-12 states “…Physical and environmental security
     controls are implemented to protect the facility housing system resources, the
     system resources themselves, and the facilities used to support their operation.”
     Unauthorized personnel, without visible identification, gained access to the
     MCDC four out of five attempts without question. Security personnel did not
     monitor security cameras, respond to door alarms, or question unauthorized
     individuals. In addition, unauthorized personnel gained access to a
     mission-critical server lab within the MCDC on three out of three attempts. An
     individual who obtains unauthorized entry into the MCDC could damage or
     destroy system servers, which could impede or shut down MSC financial
     operations. Increased monitoring of security cameras, personnel awareness,
     training, and improved alerts of breaches can significantly reduce these risks.

     Fire Suppression System. MSC did not ensure that routine inspections of the
     fire suppression system occurred at the MCDC. NIST SP 800-12 states, “when
     properly installed, maintained, and provided with an adequate supply of water,
     automatic sprinkler systems are highly effective in protecting buildings and their
     contents.” Personnel provided one confirmation of a sprinkler system inspection
     completed on December 5, 2005. MSC did not provide past fire inspection
     documentation for the MCDC to confirm routine inspections of the fire
     suppression system. As a result, there is increased risk of hardware damage
     without the assurance of a fully functional fire suppression system. MSC needs to
     ensure the inspection of the sprinkler system on a routine basis to ensure the
     protection of the system servers in the event of a fire.

     Shared User Accounts. MSC did not adequately control privileged user
     accounts. Four individuals at MSC shared the “sysadmin” user account for FMS.
     The account was shared because management did not enforce
     COMSCINST 5239.3A, “Military Sealift Command Information Assurance
     Policy,” October 14, 2003, which does not allow sharing of accounts. When
     multiple personnel use the “sysadmin” account, changes made are no longer
     traceable to a specific user making it impossible to recreate a complete audit trail.
     Users with this responsibility could create, review, and approve fictitious
     transactions without accountability in the system. As a result, the potential exists
     for unauthorized modification of financial data in FMS. A mitigating control
     such as a division of responsibilities to specific user accounts and review of
     “sysadmin” activity would decrease the risk of unauthorized modifications to
     data.



                                          13
           Application Logon Parameters. FMS password parameters did not comply with
           DoD minimum password requirements. DoD Instruction 8500.2 states
           “passwords are, at a minimum, a case sensitive, 8 character mix of upper case
           letters, lower-case letters, numbers, and special characters, including at least one
           of each.” MSC policy required an 8-character password using at least one
           number but did not require a special character or case sensitivity. In addition,
           FMS only required a five-character password. Passwords that are not sufficiently
           strong are vulnerable to password cracking 2 and other attacks intended to
           discover user passwords.

           Furthermore, the FMS logon parameters did not automatically lock out users after
           three unsuccessful logon attempts. COMSCINST 5239.3A states that access (to
           the system) shall be denied after three unsuccessful logon attempts, and System
           Administrator interaction shall be required for reactivation of the account. Users
           were able to logon to FMS after multiple failed attempts. A user attempted to
           access the system 15 consecutive times with an invalid password. On the
           sixteenth attempt, the user entered the correct password associated with the user
           name and was granted access to FMS. Management stated that the three
           unsuccessful lock out security feature was available for FMS. Management was
           aware of this setting, however did not enable the parameter to lock a user account
           after three unsuccessful attempts. By not restricting the number of logon
           attempts, there is an even greater risk that intruders would be able to crack
           passwords. The weaknesses in application logon parameters leave FMS
           vulnerable to password cracking, which could result in unauthorized access to
           FMS. An individual who gains unauthorized access could delete or modify
           system data or compromise critical system programming. To mitigate this risk,
           MSC management should enable the function that automatically locks users out
           of FMS after three unsuccessful logon attempts.


Recommendations, Management Comments, and Audit
  Response
           B. We recommend the Commander, Military Sealift Command:
                        1. Develop and enforce an access control policy that:

                               a. Includes quarterly reviews of the Financial
           Management System list of active user accounts to ensure that only
           individuals employed at the activity possess active Financial Management
           System accounts.

           Management Comments. The Director, Office of Financial Operations,
           Assistant Secretary of the Navy (Financial Management and Comptroller)
           concurred. The Military Sealift Command is currently assessing the optimum
           way to obtain up-to-date active worldwide employee files, including civilian,

2
    Password cracking is the process of recovering secret passwords from data that has been stored in or
    transmitted by a computer system, typically, by repeatedly verifying guesses for the password. One
    purpose of password cracking is to gain unauthorized access to a system.

                                                      14
military, and contractors to facilitate the recommended comparison on a quarterly
basis.

Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
completion date(s) related to quarterly reviews of the Financial Management
System list of active user accounts. We request that the Department of the Navy
provide milestones in its comments on the final report for quarterly reviews of the
Financial Management System list of active user accounts.

                      b. Requires a monthly review of the separated
employees list to ensure that all separated employees’ Financial Management
System user accounts are end dated in the system.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred. The Military Sealift Command is currently using the Headquarters
biweekly “Accessions and Separation Report” to end date users leaving Military
Sealift Command Headquarters on a real-time basis. They are also assessing the
optimum way to obtain similar information on all other Headquarters and field
personnel.
Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
completion date(s) related to a required monthly review of separated employees to
ensure that user accounts are end dated. We request that the Department of the
Navy provide milestones in its comments on the final report for a required
monthly review of separated employees to ensure that user accounts are end
dated.

           2. Develop and enforce a physical security policy that:

                    a. Increases monitoring of security cameras inside
Building 196 and incorporate this policy into the Service-Level Agreement,
and

                     b. Requires security and awareness training to
individuals working in the Military Sealift Command Corporate Data Center
to raise the awareness of security-related threats to Military Sealift
Command resources.

            3. Develop and implement a policy requiring a quarterly
inspection of the fire suppression system inside Building 196 and incorporate
this policy into the Service-Level Agreement.

           4. Enforce the shared user account requirement in Commander,
Military Sealift Command Instruction 5239.3A “Military Sealift Command
Information Assurance Policy,” October 14, 2003, and divide the “sysadmin”
functions to individual user accounts to ensure accountability. Establish a


                                    15
    policy requiring a periodic independent review of all privileged account
    activity.

             5. Submit a change request to make the Financial Management
    System password parameters enforce the password requirements set forth by
    DoD Instruction 8500.2, “Information Assurance Implementation,”
    February 6, 2003.

               6. Enable the system logon parameter that will lock a user out
    after three unsuccessful logon attempts.

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred.

    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of
    the Navy (Financial Management and Comptroller) did not identify the proposed
    action(s) and completion date(s) related to strengthening access controls. We
    request that the Department of the Navy provide a plan of action with milestones
    in its comments on the final report for limiting a user to three logon attempts.


Management Comments Required
    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 2.


                       Table 2. Management Comments Required

                                                    Concur/      Proposed   Completion
     Recommendation           Organization         Nonconcur      Action      Date

     B.1.a.              Department of the Navy        —            —            X

     B.1.b.              Department of the Navy        —            —            X

     B.2.a., B.2.b.      Department of the Navy        —            X            X

     B.3.                Department of the Navy        —            X            X

     B.4.                Department of the Navy        —            X            X

     B.5.                Department of the Navy        —            X            X

     B.6.                Department of the Navy        —            X            X




                                        16
           C. Software Development and Change
              Control
           MSC did not adequately design software development and change controls
           to operate effectively. Specifically, MSC did not properly document or
           authorize processing features and program modifications; adequately
           document, test, and approve all new and revised software; and document
           and control software libraries. The general controls over software changes
           were inadequate because MSC did not establish configuration
           management authorization, testing, approval, and library policies and
           procedures. As a result, there is an increased risk that personnel could
           install unauthorized software, make software changes prior to evaluating
           test results, and migrate unapproved software into production.


Application and System Software Development and Change
  Control
    Application software supports a specific operation such as purchasing or accounts
    payable. Establishing controls over the modification of application software
    programs helps to ensure that implementation of only authorized programs and
    modifications occurs. Organizations can accomplish this by instituting policies,
    procedures, and techniques that help ensure the proper authorizing, testing, and
    approval of all programs, modifications, and that access to and distribution of
    programs is carefully controlled. System software is a set of programs that
    operates and controls processing activities for computer equipment.
    Organizations must control the modification of system software to provide
    reasonable assurance that personnel have not compromised the system’s security
    and the system will not be impaired. MSC did not adequately implement
    software change control.


Authorization of Processing Features and Program
  Modifications
    MSC did not properly document or authorize processing features and program
    modifications for application and system software changes. DoD Directive
    8000.1, “Management of DoD Information Resources and Information
    Technology,” February 2002, states DoD Components must use a disciplined life-
    cycle approach to manage information resources from acquisition through
    retirement. In addition, Department of the Navy Information Assurance (IA)
    Publication 5239-13, “Information Assurance Certification and Accreditation,”
    volume II, December 2000, set forth requirements that management review and
    approve the product development plan for new services and products. Lack of
    proper documentation and authorization occurred because MSC did not develop
    and implement policies and procedures for application and system software
    changes.


                                       17
           Application Software Changes. Three Configuration Management (CM)
           processes used by MSC to implement a change to application and systems
           software were:

                    •    Configuration Change Request (CCR) to process changes that required
                         change control board authorization to expend additional funds,

                    •    Internal Configuration Change Request (ICCR) to process changes
                         that do not require change control board authorization, and

                    •    help desk tickets to process changes that did not require fund
                         expenditure.

           The CCRs reviewed had little documentation in the CM library. The CCR
           authorization process was not consistent. There were no policies and procedures
           in place for authorization of software modifications. Software modification CCR
           forms were not accurately and completely documented, maintained, authorized,
           and implemented. MSC could not provide documentation of ICCRs and did not
           keep documentation of ICCRs and helpdesk tickets in the CM library. MSC had a
           help desk ticket tracking system; however, MSC could not provide documentation
           for a software change due to a change of the help desk tracking system.
           System Software Changes. There was no documentation to support the
           authorization of FMS systems software changes in the CM library for the
           reviewed changes. MSC personnel considered all of the reviewed system
           software patches 3 to be routine maintenance and did not submit the changes as
           CCRs. Management communicated authorization through e-mails, but personnel
           could not identify them with a specific patch because the e-mails did not include
           the patch number.

           As a result of the lack of documentation of application and system software
           changes, verification of the authorization and implementation of changes to the
           MSC FMS could not occur. MSC prepared a draft CM Plan that would provide
           structure to the software change process. MSC could establish consistency of
           change control processes and documentation by ensuring that the CM plan meets
           the requirement of a disciplined life-cycle approach and implementing the CM
           plan upon completion.


Test and Approve All New and Revised Software
           MSC did not adequately test and approve all new and revised software. The lack
           of test plan standards and management approval occurred because MSC did not
           develop and implement policies and procedures for controlling system changes.

           Test. MSC had not developed test plan standards or maintained documentation of
           testing performed. Joint Financial Management Improvement Program System
           Requirements 02-01, “Core Financial System Requirements,” November 2001,

3
    A patch is a temporary addition to a piece of code, usually as a quick-and-dirty remedy to an existing bug
    or misfeature.

                                                       18
states that a financial management system may require maintenance or
modification; therefore, agencies should develop standards and procedures for
testing, implementing, and installing modifications to the system.

NIST SP 800-26, “Computer Security,” November 2001, states that the
supporting documentation makes it easier to review the program by describing all
the test scenarios that have taken place throughout the life of the program. There
were no test plan standards that define responsibilities for management, users,
system analysts, programmers, auditors, quality assurance, and library control. In
addition, there was no documentation of test plans, test results, changes made
based on test results, or user acceptance of the new or revised software in the CM
library. A draft test plan, results of the testing performed, documentation of user
acceptance, and a feasibility study were included for 1 of the 15 reviewed
changes. However, management did not finalize these documents. MSC did not
provide documentation to support testing for 14 of 15 reviewed changes including
the following:
       •   test specifications,
       •   test plans,
       •   test failures,
       •   test transactions and data,
       •   test results,
       •   management or security administrator reviews,
       •   user acceptance testing,
       •   management approval, and
       •   updates to system and operational documentation.

Approval. MSC management did not adequately approve configuration change
requests. NIST SP 800-53 recommends that an approving official within an
organization must document and control changes to their information systems
while monitoring the changes and conducting security impact analyses. MSC
could not provide supporting documentation for adequate approval of software
changes requested.

In addition, MSC did not develop procedures for testing and approval of
emergency changes. The NIST SP 800-53, “Recommended Security Controls for
Federal Information Systems,” February 2005, “Configuration Management,”
Section 3, recommends organizations to include emergency changes in the
configuration change control process. The Military Sealift Command Business
Impact Analysis (BIA) states that there is a 3- to -14 day system recovery
requirement. MSC did not develop emergency change procedures and concluded
that personnel could follow the three CM processes in place under any
circumstance.

As a result of the lack of testing and approval, an audit trail does not exist to track
the system changes for FMS. Not establishing controls over the modification of
application software programs increases the risk of implementing unauthorized
programs and modifications. Also, not developing emergency change procedures
will increase the risk of suspending or abbreviating normal controls. MSC could
reduce these risks by completing and implementing a CM plan.



                                      19
Controls over Software Libraries
     MSC did not adequately document or control software libraries.
     COMSCINST 5239.3A states that MSC should manage and maintain system
     libraries appropriately. MSC should update libraries when they make changes,
     and all users should abide by all system library internal controls. Furthermore,
     the Department of the Navy Staff Officer Publication 5239-07, “Information
     System Security Officer Guidebook,” February 1996 states that the Information
     System Security Officer should maintain a library of the documentation detailing
     the IS hardware, software, and firmware configuration and security features.
     MSC has implemented control measures to limit access to its software library;
     however, documentation does not exist for the software library or software
     migration procedures. MSC did not keep an inventory or a log for the software
     library. In addition, the same administrator who maintained the software library
     also tested and migrated system software for production. MSC lacked software
     library controls because management did not develop policies and procedures for
     the software library and independent migration process. As a result, MSC could
     not trace software installations through the development, testing, and production
     instances, and there is an increased risk that unapproved software would be
     migrated. The CM plan should include policies and procedures for library
     management and independent migration to reduce this risk.


Recommendations, Management Comments, and Audit
  Response
     C. We recommend that the Commander, Military Sealift Command
     complete and implement the Configuration Management Plan in accordance
     with DoD Directive 8000.1, “Management of DoD Information Resources
     and Information Technology,” February 2002, which requires a disciplined
     life-cycle approach. The Configuration Management Plan should include the
     following:

            1. Proper authorization documentation for each phase of a
     Configuration Change Request and Internal Configuration Change Request
     used for application and system software changes.

           2. Submit all documentation for Internal Configuration Change
     Requests, configuration change help desk tickets, and system software
     changes to the Configuration Management library.

             3. For the testing and approving of new and revised software, include
     the following:

                   a. Document test plan standards for all levels of testing that
     define responsibilities for each party,

                   b. Report test failures and modifications,

                   c. Document test transactions and data, and

                                         20
                     d. Develop and implement emergency change procedures.

           4. Develop and approve policies and procedures to control the
    software libraries and independent software migration that:

                     a. Includes a log for the software library,

                     b. Requires an inventory for the software library, and

                 c. Enforces personnel independent of the software testing
    group to migrate approved changes to production.

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred.
    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of
    the Navy (Financial Management and Comptroller) did not identify the proposed
    action(s) and completion date(s) related to the completion and implementation of
    the Configuration Management Plan. We request that the Department of the
    Navy provide a plan of action with milestones in its comments on the final report
    for the completion and implementation of the Configuration Management Plan.


Management Comments Required
    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 3.


                           Table 3. Management Comments Required

                                                      Concur/      Proposed   Completion
     Recommendation              Organization        Nonconcur      Action      Date

     C.1.                   Department of the Navy      —             X           X

     C.2.                   Department of the Navy      —             X           X

     C.3.a., 3.b., 3.c.,    Department of the Navy      —             X           X
     3.d.

     C.4.a., 4.b., 4c.      Department of the Navy      —             X           X




                                          21
                    D. System Software
                    MSC did not adequately design system software general controls to
                    operate effectively. MSC did not properly limit and monitor access to and
                    use of system software. Access was inadequately limited because MSC
                    did not follow established procedures for approval of system administrator
                    access and accounts. The lack of effective monitoring occurred because
                    MSC did not develop or enforce policies and procedures for the use and
                    monitoring of system software utilities. As a result, these weaknesses
                    could create vulnerabilities and the opportunity for unauthorized actions to
                    occur.


System Software Controls
           System software is a set of programs designed to operate and control the
           processing activities of computer equipment. System software helps control and
           coordinate the input, processing, output, and data storage. MSC used the Sun
           Solaris 5.8 system software for FMS. MSC did not adequately design general
           controls over system software to operate effectively.


Access to System Software
           MSC did not adequately limit access to system software. Specifically,
           management did not approve system administrator access and control the
           administrator account. Access was not adequately limited because MSC did not
           follow established procedures for approval of system administrator access and a
           shared account.

           Administrator Access. MSC did not properly authorize user access to system
           software. To gain system administrator access to system software, the
           COMSCINST 5239.3A requires a valid request to gain a user account and
           password. The MCDC standard operating procedures require database
           administrators and end users who need network accounts to fill out a “User
           Account Request Template” and provide additional required information. From
           this information, MSC would grant or deny access to the computer system.
           During a recent contract change, management did not follow this policy. Users at
           the MCDC were given access to the MSC computer system without providing a
           valid request and obtaining approval from MSC management. Without proper
           authorization, individuals may have access to areas of the system that their job
           duties did not require. This provides the opportunity for unauthorized actions to
           occur.

           Administrator Accounts. Multiple users shared the administrator account
           “root” 4 for access to the computer system. The use of one username and
           password is not permitted under COMSCINST 5239.3A as it states that accounts
           must not be shared. The root account is necessary to perform certain system
4
    The “root” user account is the UNIX system administration account with the highest privilege levels.

                                                      22
           functions. The root user had the ability to logon either from a remote logon or
           directly from the master console. Management could only trace activity on the
           root account if the user logged on through a remote connection. As a result,
           management cannot maintain proper auditing logs, which increases the risk of
           unauthorized activities occurring. To mitigate this risk, personnel should always
           logon remotely. If it is necessary to logon through the master console, the user
           should record the activity to provide an audit trail.


Use and Monitoring of System Software
           MSC did not effectively use and monitor the system software. The lack of
           effective use and monitoring occurred because MSC did not enforce policies and
           procedures for system software utilities. 5

           Use of System Software Utilities. MSC did not properly document the use of
           system software utilities. OMB Circular A-123 states documentation of the
           significant computer applications should include the nature of software utilities
           used at computer processing locations that provide the ability to add, alter, or
           delete information stored in data files, the database, and program libraries. As a
           result, there is an increased risk of vulnerabilities and errors in the use of
           software. MSC could mitigate this risk by establishing policies to prevent errors
           in the software usage that could cause vulnerabilities.

           Monitoring of Software Utilities. MSC did not adequately monitor the use of
           system software utilities. COMSCINST 5239.3A states:
                    Auditing shall be in place to ensure that each person who accesses a
                    system is accountable for their actions. Audit records shall be
                    sufficiently detailed to reconstruct events that lead to a security
                    violation, malfunction, or other adverse event, and determine its cause
                    and scope. These records must be protected and reviewed as
                    appropriate for the level of concern for the system.

           MCDC personnel did not document daily reviews performed of software utilities
           that would create proper audit records. Additionally, MSC management did not
           perform any review of system software utilities. As a result, MSC cannot
           effectively manage access to system software utilities. To alleviate this risk,
           MSC should perform reviews of system software utilities.




5
    MSC had the following system software utilities in place: HP Jet Direct, Secure Shell 3.2.2, Legato, TCP
    Wrapper 7.6, Big Brother 1.9c, Cops 1.04, and Enterprise Security Manager 55.



                                                      23
Recommendations, Management Comments, and Audit
  Response
    D. We recommend that the Commander, Military Sealift Command:

           1. Follow Commander, Military Sealift Command
    Instruction 5239.3A, “Military Sealift Command Information Assurance
    Policy,” October 14, 2003, to properly authorize the access granted to the
    Military Sealift Command Corporate Data Center personnel.

           2. Require Military Sealift Command Corporate Data Center
    personnel to logon remotely from their workstation when using the root user
    account. If access to the root user account is necessary through the master
    console, a manual log is to be used to record the activity of the root user
    account to provide a proper audit trail.
           3. Establish policies and procedures documenting the use of system
    software utilities as required by the Office of Management Budget
    Circular A-123, “Management’s Responsibility for Internal Control,”
    July 2005.

           4. Require Military Sealift Command to perform reviews of system
    software utility usage.

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred.

    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of
    the Navy (Financial Management and Comptroller) did not identify the proposed
    action(s) and completion date(s) related to strengthening system software general
    controls. We request that the Department of the Navy provide a plan of action
    with milestones in its comments on the final report for reviewing system software
    utility usage.




                                       24
Management Comments Required
    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 4.


                       Table 4. Management Comments Required

                                                    Concur/      Proposed   Completion
     Recommendation           Organization         Nonconcur      Action      Date

     D.1.                Department of the Navy        —            X            X

     D.2.                Department of the Navy        —            X            X

     D.3.                Department of the Navy        —            X            X

     D.4.                Department of the Navy        —            X            X




                                        25
            E. Segregation of Duties
            MSC did not properly segregate incompatible duties and control and
            monitor MCDC personnel activities. The general controls over
            segregation of duties were inadequate because MSC did not develop or
            enforce policies and procedures to support segregation of duties and
            control and monitor personnel activity. As a result, there was an increased
            risk of processing erroneous transactions, assigning improper
            responsibilities to an FMS user, improper use of computer resources, and
            unauthorized modifications of financial data in FMS.


Segregation of Duties Controls
     Segregation of duties refers to the separation of work responsibilities to prevent
     one employee from controlling all critical stages of a process. Segregation of
     duties is a critical control that assures the separation of the functions of
     authorizing, processing, recording, and reviewing transactions. Dividing duties
     among two or more individuals or groups diminishes the likelihood that errors
     and wrongful acts will go undetected because the activities of one individual or
     group will serve as a check on the activities of the other.


Segregate Incompatible Duties
     MSC did not properly segregate incompatible duties. Specifically, management
     did not identify incompatible duties and properly document job descriptions.
     Segregation of incompatible duties was inadequate because MSC did not develop
     or enforce policies and procedures to assist in segregating duties.

     Incompatible Duties. MSC assigned several users privileged accounts or
     conflicting responsibilities. DoD Instruction 8500.2 requires the Information
     Assurance Manager to develop and implement a role-based access scheme that
     accounts for all privileged access and implements the principles of least privilege
     and separation of functions. MSC assigned the System Administrator
     responsibility to 12 application users and the purchasing super user responsibility
     to 41 users. These privileged responsibilities allow the user to perform a number
     of incompatible duties. Additionally, MSC assigned nine application users
     conflicting responsibilities in FMS that included a combination of four
     responsibilities. The four responsibilities identified were MSC Requisitioner,
     MSC Purchase Card Holder, MSC Fund Certifier, and MSC Procurement
     Processor. Table 5. shows the incompatible responsibilities and number of users
     identified in FMS for each combination of incompatible responsibilities.




                                          26
                             Table 5. Number of FMS Users Assigned
                                  Incompatible Responsibilities
         MSC                 MSC Purchase            MSC Fund           MSC Procurement
      Requisitionera         Card Holderb            Certifierc           Processord                 No. of Users
                                                        X                     X                            4
                                     X                  X                                                  2
              X                                         X                                                  1
              X                      X                  X                           X                      1
              X                      X                  X                                                  1
                                                                                 Total                     9
      a
        Allowed the creation of purchase requisitions and purchase orders from an approved commitment.
      b
        Allowed the purchase cardholder to enter their monthly purchase card requisitions.
      c
        Allowed the viewing of requisition header information and project status information. It also allowed the
        approval of commitments and the posting of receipts.
      d
        Combined the functions of purchasing requisitioner, purchasing technician, and receiver. The combination of
        these functions was to improve efficiency.



     In addition, MSC did not have policies in place that required regularly scheduled
     vacations or job rotations to reduce the risk of fraud, and personnel had not
     received training on the principles of segregation of duties. MSC must provide
     adequate resources and training to personnel to ensure the understanding of
     segregation of duties principles, establishment, enforcement, and
     institutionalization within the organization. As a result of not having policies in
     place, there was an increased risk of processing erroneous transactions through
     FMS. Performing a review of user’s responsibilities in FMS on a regular basis
     would mitigate this risk. Providing personnel training on the principles of
     segregation of duties would also help to mitigate this risk.

     Job Descriptions. The MSC job descriptions did not specifically address the
     user’s responsibilities within FMS. According to NIST SP 800-12, employee job
     descriptions should assist the system administrator in assigning responsibilities to
     FMS users. The roles and responsibilities found in the job descriptions at MSC
     were broad categories of functions. To assist the system administrator in
     assigning responsibilities in FMS, the individual’s supervisor would fill out a
     New Employee Form. However, out of eight employees selected:
               •     seven did not have a form on file and

               •     one had a completed form on file that did not include specific duties to
                     be performed in FMS.

     As a result, an increased risk existed in assigning improper responsibilities to an
     FMS user. To mitigate this risk, MSC should revise and require completion of
     the New Employee Form to include a brief description of the individual’s FMS
     duties to assign and document user responsibilities.


Operations Personnel Activity
     MSC did not properly control and monitor personnel activity. Specifically,
     formal procedures did not guide MCDC personnel in performing their duties, and
     management did not actively supervise and review personnel activity. MSC did

                                                         27
not properly control and monitor MCDC personnel activities because the policies
and procedures in place to control and monitor personnel were inadequate.

MCDC Formal Procedures. Management did not document detailed
instructions that guide personnel in performance of their duties. Department of
the Navy IA Publication 5239-01, “Introduction to Information Assurance
Publication,” May 2000 states consistent, clearly documented operating
procedures for both system configuration and operational use are key to ensuring
information assurance. Procedures should define system deployment,
configuration, and day-to-day operations for both the system administrator and
user, as well as how to respond to real or perceived attempts to violate system
security. All Department of the Navy information systems and networks should
include written standard operating procedures, which are routinely updated and
tailored to reflect changes in the operational environment. Management provided
the MCDC Standard Operating Procedures manual as the policy and procedures
used to guide personnel activities. Although the MCDC Standard Operating
Procedures manual provided a framework to guide personnel activity, examples
of omissions were:
       •   system startup and shutdown procedures or emergency procedures;
           and

       •   instructions such as the use of scripts to change passwords of
           privileged database accounts.

As a result, there is an increased risk of improper use of computer resources.
Updating the MCDC Standard Operating Procedures manual would mitigate this
risk.

Supervision and Review. MSC did not properly supervise and review MCDC
personnel activity within FMS. COMSCINST 5239.3A requires administrators to
configure systems to limit sessions and provide accountability for all sessions. It
further details session accountability by requiring:

       •   audit features to be in place to ensure that people who access a system
           are accountable for their actions,
       •   audit records to be sufficiently detailed to reconstruct events that lead
           to a security violation, malfunction or other adverse event, and
           determine its cause and scope,

       •   management to protect and review these records as appropriate for the
           level of concern for the system, and

       •   MSC to review logs and audit trails at least weekly, but preferably
           once a day, for indications of inappropriate or unusual activity.

Management did not adequately supervise and review privileged user accounts.
As a result, the potential exists for unauthorized modification of financial data in
FMS. A mitigating control such as an automated history log of all computer
operator activities on the system that supervisors routinely review could serve as
part of the audit trail.

                                     28
Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft recommendation E.3. to clarify the nature of the actions needed to improve
    existing management controls.

    E. We recommend that the Commander, Military Sealift Command:

          1. Enforce DoD Instruction 8500.2, “Information Assurance
    Implementation,” February 6, 2003, by performing an annual review of the
    responsibilities assigned to application users of the Financial Management
    System to strictly limit the number of users who can create, review and
    approve transactions, create user accounts, create supplier records, or
    perform other incompatible functions.
    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred.

    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of
    the Navy (Financial Management and Comptroller) did not identify the proposed
    action(s) and completion date(s) related to an annual review of the responsibilities
    assigned to Financial Management System users. We request that the Department
    of the Navy provide a plan of action with milestones in its comments on the final
    report for an annual review of the responsibilities assigned to Financial
    Management System users.

           2. Require vacations or job rotations for personnel who have
    privileged access to the system, and provide training to personnel on the
    principles of segregation of duties.

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred in principle. The Military Sealift Command is currently reexamining
    the entire process as it relates to strong internal controls over system access.
    They are working toward eliminating “privileged” access to the extent possible.

    Audit Response. The Department of the Navy comments were partially
    responsive. The proposed actions that the Director, Office of Financial
    Operations, Assistant Secretary of the Navy (Financial Management and
    Comptroller) identified will not adequately ensure that MSC will take measures to
    require vacations or job rotations for personnel with privileged access to the
    system. We request that the Department of the Navy provide a specific plan of
    action with milestones in its comments on the final report for requiring vacations
    or job rotations for personnel who have privileged access to the system.

           3. Require the completion of the New Employee Form to include a
    brief description of the employee’s duties within the Financial Management
    System, for use in assigning and documenting responsibilities.

                                         29
Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred in part. The Military Sealift Command is currently in the process of
revising the New Employee Form to advise the Financial Office of the specific
Financial Management System duties to be performed by the requestor.

Audit Response. The Department of the Navy comments were partially
responsive. We revised the recommendation to mirror the action of the Military
Sealift Command. However, the Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller) did not
identify the proposed completion date(s) related to revising the New Employee
Form to require the specific Financial Management System duties performed by
the requestor. We request that the Department of the Navy provide milestones in
its comments on the final report for revision of the New Employee Form to
require the specific Financial Management System duties performed by the
requestor.
      4. Update the Military Sealift Command Corporate Data Center
Standard Operating Procedure manual to:

              a. Include system startup and shut-down procedures;

              b. Document emergency procedures; and

              c. Incorporate new procedures.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred.

Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
action(s) and completion date(s) related to updating the Military Sealift Command
Corporate Data Center Standard Operating Procedures manual. We request that
the Department of the Navy provide a plan of action with milestones in its
comments on the final report for updating the Military Sealift Command
Corporate Data Center Standard Operating Procedures manual.
       5. Follow Commander, Military Sealift Command
Instruction 5239.3A, “Military Sealift Command Information Assurance
Policy,” October 14, 2003, by configuring the Financial Management System
to create an automated history log of all computer operator activities on the
computer system to serve as an audit trail. In addition, require supervisors
to routinely review the history log for privileged accounts and investigate any
abnormalities.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred.



                                   30
    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of
    the Navy (Financial Management and Comptroller) did not identify the proposed
    action(s) and completion date(s) related to configuring the system to create an
    automated history log and requiring supervisors to routinely review it to serve as
    an audit trail. We request that the Department of the Navy provide a plan of
    action with milestones in its comments on the final report for configuring the
    system to create an automated history log and requiring supervisors to routinely
    review it to serve as an audit trail.


Management Comments Required
    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 6.


                          Table 6. Management Comments Required

                                                     Concur/      Proposed   Completion
     Recommendation             Organization        Nonconcur      Action      Date

     E.1.                  Department of the Navy       —            X            X

     E.2.                  Department of the Navy       —            X            X

     E.3.                  Department of the Navy       —            —            X

     E.4.a., 4.b., 4.c.    Department of the Navy       —            X            X

     E.5                   Department of the Navy       —            X            X




                                         31
            F. Service Continuity
            MSC did not adequately design service continuity general controls to
            operate effectively. Specifically, MSC did not properly assess the
            criticality and sensitivity of computerized operations and identify
            supporting resources critical to operations; take steps to prevent and
            minimize potential damage and interruption to the system; and develop
            and document a comprehensive contingency plan. Service continuity
            general controls were not adequately designed or operating effectively
            because MSC did not establish or follow service continuity policies and
            procedures. As a result, these weaknesses could cause a delay in the
            restoration of critical operations, loss of data, equipment failure, unsafe
            conditions in an emergency, and delays in returning to normal operations.


Service Continuity Controls
     Service continuity is synonymous with a disaster recovery plan. A loss of the
     capability to process, retrieve, and protect electronically maintained information
     can significantly affect an agency’s ability to accomplish its mission. Because of
     this risk, organizations should implement service continuity controls to ensure
     that when unexpected events occur, critical operations continue without
     interruption or are promptly resumed, and critical and sensitive data are protected.
     Controls to ensure service continuity should address the entire range of potential
     disruptions, which may include relatively minor interruptions, such as temporary
     power failures, as well as major disasters. MSC developed their MCP as a guide
     in the event of a contingency. Service continuity controls over FMS at MSC were
     not adequately designed or operating effectively.


Assess Computerized Operations and Supporting Resources
     The MSC MCP did not adequately assess the criticality and sensitivity of
     computerized operations and identify supporting resources. Management had not
     included emergency processing priorities in the MSC MCP. MSC assessed
     emergency processing priorities in the MSC BIA, which identified the maximum
     tolerable downtime for each mission-critical and mission-essential MSC function
     and defined four phases of recovery. However, MSC did not incorporate this
     information into the MSC MCP. MSC did not properly assess computerized
     operations and supporting resources. NIST SP 800-34 recommends that the
     results from the BIA be incorporated into the development of the MCP. As a
     result, there is an increased risk of delaying the resumption of operations in the
     event of a contingency. Incorporating the BIA into the MSC MCP would
     mitigate this risk.




                                         32
Prevent and Minimize Damage and Interruption
    MSC did not adequately take steps to prevent and minimize damage and
    interruption to the system. Specifically, management did not effectively:

           •   implement data and program backup procedures;

           •   implement adequate environmental controls;

           •   train staff for emergencies; and

           •   maintain hardware, problem management, and alternate data
               processing capabilities.

    MSC did not adequately take steps to prevent and minimize damage and
    interruption to the system because management did not fully develop or follow
    service continuity policies and procedures.

    Data and Program Backup Procedures. MSC did not properly implement data
    and program backup procedures. NIST SP 800-34 states that data backup policies
    should designate the location of stored data, file-naming conventions, media
    rotation frequency, and method for transporting data offsite. The “MCDC
    Backup Policy,” June 5, 2003, was a simple, generic explanation of the backup
    and data retention policy. The MCDC Backup Policy did not address the
    file-naming conventions, exact location of offsite storage, and method for
    transporting data offsite. MSC was in the process of developing a more complete
    backup policy; however, management did not provide the updated policy.

    MSC used the MCDC Backup Policy as guidance to perform system backups.
    However, MSC did not adhere to the following portions of the MCDC Backup
    Policy.

           •   Daily Backups. MSC created a daily incremental backup to a hard
               drive, which could only be stored for 2 days due to backup tape
               failure.

           •   Weekly Backups. MSC does not perform a weekly full system
               backup.

           •   Backup Storage. Tapes were not stored and securely protected for
               retention periods commensurate with the type of information on the
               backup.

           •   Tests of Backups. MSC was not performing a test of the backups
               created.

    As a result, there is an increased risk to the availability of data. To mitigate this
    risk, MSC should finalize and implement the updated MCDC Backup Policy to
    include: file naming conventions, exact location of storage, a method for
    transporting data offsite, and hardware maintenance.


                                          33
    Environmental Controls. MSC did not implement adequate environmental
    controls. NIST SP 800-53 states the organization schedules, performs, and
    documents routine preventative and regular maintenance in accordance with
    manufacturer or vendor specifications. MSC was unable to provide sufficient
    evidence that the environmental controls were functioning properly. As a result,
    there is an increased risk that in the event of an emergency, equipment will not
    function properly. MSC installed environmental controls including humidity,
    temperature, and lighting to protect personnel and equipment based on the
    operational needs of the site. However, documenting these controls, including
    preventive and regular maintenance, is vital to ensure the functionality of
    equipment in the event of an emergency.

    Emergency Training. MSC did not train the MCDC staff on procedures to
    follow in case of an emergency. NIST SP 800-12 provides guidance regarding
    training personnel on emergency procedures. It states that organizations should
    provide training to personnel for their contingency-related duties upon joining the
    organization, as a refresher, and to practice skills. Procedures were not in place to
    require the necessary training or define the employee training. As a result, staff,
    without guidance or training in the case of an emergency, can cause unsafe
    conditions resulting in a loss of life or equipment. Developing these policies and
    procedures would mitigate this risk.
    Hardware Maintenance, Problem Management, and Alternate Data
    Processing Capabilities. MSC did not perform routine preventative maintenance
    and establish an adequate alternative processing site. NIST SP 800-53
    recommends that the organization schedules, performs, and documents routine
    preventative and regular maintenance of the information system in accordance
    with manufacturer or vendor specifications. MSC only performed maintenance
    after a failure occurred. In addition, MSC did not have an adequate alternative
    data processing site established for FMS. DoD Instruction 8500.2 and
    COMSCINST 5239.3A state that a disaster recovery plan, shall provide for the
    resumption of full operations within 24 hours of an event resulting in the
    cessation or degradation of full operations. MSC did not meet this requirement
    with the established processing site. As a result, there is an increased risk of a
    delay in providing important support services that may seriously affect
    operational readiness. MSC could mitigate this risk by performing routine
    maintenance and establishing an alternate data processing site.


Develop and Document a Comprehensive Contingency Plan
    MSC did not fully develop and document a comprehensive contingency plan.
    Specifically, the contingency plan was not up-to-date, did not include the
    procedures for alternate data processing, and was not fully tested. MSC did not
    fully develop and document a comprehensive contingency plan because
    management did not comply with service continuity guidance.

    Updated Contingency Plan. MSC had not updated the MSC MCP to include a
    timeframe for FMS to be operational in the event of a contingency. DoD

                                         34
    Instruction 8500.2 establishes the restoration requirement, which states that a
    Mission Assurance Category II system must be operational within 24 hours.
    MSC has developed the BIA to include a timeframe by requiring FMS to be
    operational in 3-14 days; however, MSC has not incorporated the BIA results into
    the MCP as is recommended by NIST SP 800-34. In addition, the BIA did not
    comply with DoD Instruction 8500.2. As a result, there is an increased risk that
    in the event of a system failure there will be a delay in the return to normal
    operations. MSC could mitigate this risk by correcting the BIA and incorporating
    it into the MCP.

    Alternate Data Processing Procedures. MSC did not develop and document the
    procedures necessary to sustain operations in the event of a system disruption.
    NIST SP 800-34 defines contingency planning as interim measures to recover IT
    services following an emergency or system disruption. Interim measures may
    include the performance of IT functions using manual methods. In addition,
    NIST SP 800-12 states that documentation of all aspects of computer support and
    operations is important to ensure continuity and consistency. MSC did not
    develop interim manual procedures for personnel to follow in the event of system
    disruption. As a result, there is an increased risk of delays in returning to normal
    operations. MSC could mitigate this risk by documenting interim manual
    procedures to be used in the event of an emergency.
    Contingency Plan Testing. MSC did not test all areas of the contingency plan.
    NIST SP 800-34 states plan testing is a critical element of a viable contingency
    capability. Testing enables organizations to identify and address plan
    deficiencies. Organizations should test each IT contingency plan element to
    confirm the accuracy of individual recovery procedures and the overall
    effectiveness of the plan. MSC did not test the capability of personnel to
    telework in the event of a contingency. According to the MSC MCP, personnel
    were to telework in all phases of a contingency. In addition, MSC did not test the
    restoration of data from backup media and system performance using alternate
    data processing equipment. As a result, there is an increased risk that MSC
    personnel would not continue normal operations and financial data would be lost
    in the event of a contingency. The completion and testing of teleworking
    capabilities and an alternative data processing site will reduce this risk.


Recommendations, Management Comments, and Audit
  Response

    F. We recommend that the Commander, Military Sealift Command:

        1. Incorporate the Business Impact Analysis into the Military Sealift
    Command Mission Continuity Handbook.

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred.

    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of

                                        35
the Navy (Financial Management and Comptroller) did not identify the proposed
action(s) and completion date(s) related to incorporating the Business Impact
Analysis into the Military Sealift Command Mission Continuity Handbook. We
request that the Department of the Navy provide a plan of action with milestones
in its comments on the final report for incorporating the Business Impact Analysis
into the Military Sealift Command Mission Continuity Handbook.

      2. Finalize and implement the updated Military Sealift Command
Corporate Data Center Backup Policy to include:

               a. File naming conventions,

               b. Exact location of storage,

               c. A method for transporting data offsite, and
               d. Hardware maintenance.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred.

Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
action(s) and completion date(s) related to finalizing and implementing the
updated data backup policy. We request that the Department of the Navy provide
a plan of action with milestones in its comments on the final report for finalizing
and implementing the updated data backup policy.

       3. Obtain and retain maintenance documentation for environmental
control devices.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred.
Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
action(s) and completion date(s) related to maintenance documentation for
environmental control devices. We request that the Department of the Navy
provide a plan of action with milestones in its comments on the final report for
maintenance documentation for environmental control devices.

    4. Develop emergency procedures and train the Military Sealift
Command Corporate Data Center staff on these procedures.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred.


                                    36
Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
action(s) and completion date(s) related to emergency procedures for the Military
Sealift Command Corporate Data Center personnel. We request that the
Department of the Navy provide a plan of action with milestones in its comments
on the final report for emergency procedures for the Military Sealift Command
Corporate Data Center personnel.

       5. Develop and follow maintenance procedures for information
technology equipment and establish an alternative processing site.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred.
Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
action(s) and completion date(s) related to maintenance procedures of information
technology equipment and an alternative processing site. We request that the
Department of the Navy provide a plan of action with milestones in its comments
on the final report for maintenance procedures of information technology
equipment and an alternative processing site.

       6. Correct the Business Impact Analysis to be in accordance with
DoD Instruction 8500.2, “Information Assurance Implementation,”
February 6, 2003, requiring a Mission Assurance Category II system to be
operational within 24 hours of a contingency.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred.

Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
action(s) and completion date(s) related to correcting the Business Impact
Analysis to include the system to be operational within 24 hours of a contingency.
We request that the Department of the Navy provide a plan of action with
milestones in its comments on the final report for correcting the Business Impact
Analysis to include the system to be operational within 24 hours of a contingency.

       7. Develop and document interim manual procedures to be used in
the event of an emergency.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred. The Military Sealift Command continues to work diligently on an
overall Mission Continuity Plan. In addition, they are developing manual
financial procedures for mission critical requirements that they will incorporated
into the plan.

                                    37
Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the
completion date(s) related to manual financial procedures for mission critical
requirements. We request that the Department of the Navy provide milestones in
its comments on the final report for developing manual financial procedures for
Mission Critical requirements.

       8. Test telework capabilities and make corrections if appropriate in
order to have the ability to telework in the event of an emergency.

Management Comments. The Director, Office of Financial Operations,
Assistant Secretary of the Navy (Financial Management and Comptroller)
concurred.

Audit Response. The Department of the Navy comments were partially
responsive. The Director, Office of Financial Operations, Assistant Secretary of
the Navy (Financial Management and Comptroller) did not identify the proposed
action(s) and completion date(s) related to teleworking in the event of an
emergency. We request that the Department of the Navy provide a plan of action
with milestones in its comments on the final report for teleworking in the event of
an emergency.




                                    38
Management Comments Required
    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 7.


                          Table 7. Management Comments Required

                                                     Concur/     Proposed   Completion
     Recommendation             Organization        Nonconcur     Action      Date

     F.1.                  Department of the Navy      —            X            X

     F.2.a., 2.b., 2.c.    Department of the Navy      —            X            X

     F.3.                  Department of the Navy      —            X            X

     F.4.                  Department of the Navy      —            X            X

     F.5.                  Department of the Navy      —            X            X

     F.6.                  Department of the Navy      —            X            X

     F.7.                  Department of the Navy      —            —            X

     F.4.                  Department of the Navy      —            X            X




                                         39
            G. Authorization
            MSC did not adequately design authorization application controls to
            operate effectively. Specifically, MSC did not authorize all fuel
            transactions before entry into FMS. Authorization application controls
            were not adequate because management did not finalize and enforce draft
            fuel processing procedures. As a result, the authorization weakness
            increases the risk of inaccurate data entry into FMS.


Authorization Controls
     Authorization application controls ensure the validity of transactions and ensure
     that they represent economic events that took place during a given time period.
     Organizations should authorize data before its entry into the application system.
     Source documents play a significant role in originating data and should fall under
     control measures to ensure that organizations process only authorized
     transactions. Additionally, data should undergo an independent or supervisory
     review prior to entering the application. MSC did not adequately design
     authorization application controls to operate effectively.


Authorization of Fuel Purchases
     MSC did not establish controls that authorized all fuel purchases before entry into
     FMS. Specifically, MSC did not control source documents or independently
     review all transactions. MSC did not establish controls that authorized all fuel
     purchases before entry into FMS because management did not finalize and
     enforce draft procedures for recording fuel purchases

     Control Over Source Documents. MSC did not adequately use authorized
     source documents to support ship fuel purchases. DoD Financial Management
     Regulation (FMR) volume 1, chapter 3, “Accounting Systems Conformance,
     Evaluation, and Reporting,” May 1993, Key Accounting Requirement 8 states
     that financial transactions must be adequately supported with pertinent documents
     and source records. It further explains that all transactions, including
     computer-generated and computer-processed, must be traceable to individual
     source records. Fuel purchases were a significant portion of the MSC annual
     operating budget. MSC had draft procedures outlining the procedures for
     properly supporting fuel transactions, but management did not enforce the
     procedures to allow proper audit trails. MSC personnel were to record fuel
     purchases using a DD-1149, “Requisition and Invoice/Shipping Document,” or a
     DD-1155, “Order for Supplies or Services,” which was generated at the time of
     delivery, recorded the actual amount of fuel received, and signed by the supplier
     and MSC ship fuel officers.

     However, the official DD-1149 or DD-1155 source document was not always
     available at the time of data entry. When MSC personnel did not receive the
     official source document, personnel used unauthorized summary documentation
     from the Navy Energy Usage Reporting System reports or the supplier bill to

                                         40
    record the amount of fuel purchased for MSC ships. As a result, there is an
    increased risk of inaccurate data entry into FMS. To mitigate this risk,
    management should finalize and enforce the draft procedures for the recording of
    ship fuel purchases.

    Independent Review. Management did not perform an independent review of all
    fuel transactions prior to entry into the system. DoD FMR volume 1, chapter 3,
    Key Accounting Requirement 7 states that organizations must maintain a
    separation of duties for reviewing transactions. MSC had draft procedures
    requiring MSC personnel to provide DD-1149 or DD-1155 forms to headquarters
    to establish proper separation of duties; however, MSC personnel did not always
    follow the procedures. In the event MSC headquarters did not receive an official
    source document, an individual was entering, approving, and receipting the fuel
    purchase transactions from the unauthorized summary documentation from the
    Navy Energy Usage Reporting System and supplier bills without an independent
    review. As a result, there is an increased risk that the financial statements contain
    unauthorized information regarding fuel expenditures. To mitigate this risk,
    management should finalize and enforce the draft procedures for fuel purchasing
    that includes a requirement for an independent review of fuel transactions.


Recommendations, Management Comments, and Audit
  Response
    G.1. We recommend that the Commander, Military Sealift Command
    finalize and enforce the draft fuel processing procedures that will require
    submission of all DD-1149 and DD-1155 forms and fuel delivery
    documentation to Military Sealift Command Headquarters for supporting
    documentation of the financial transactions, independent review, and
    verification that fuel was received.

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred.
    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of
    the Navy (Financial Management and Comptroller) did not identify the proposed
    action(s) and completion date(s) related to supporting documentation of the
    financial transactions, independent review, and verification that fuel was received.
    We request that the Department of the Navy provide a plan of action with
    milestones in its comments on the final report for supporting documentation of
    the financial transactions, independent review, and verification that fuel was
    received.




                                         41
Management Comments Required
    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 8.


                       Table 8. Management Comments Required

                                                    Concur/      Proposed   Completion
     Recommendation           Organization         Nonconcur      Action      Date

     G.1.                Department of the Navy        —            X            X




                                        42
            H. Accuracy
            MSC did not adequately design accuracy application controls to operate
            effectively. Specifically, MSC did not properly ensure that FMS data
            were valid and accurate. Accuracy application controls were not
            adequately designed or operating effectively because management did not
            establish or enforce data accuracy policies and procedures. As a result,
            financial data reported by FMS may be inaccurate.


Accuracy Controls
     Data accuracy indicates that organizations record transactions in the correct
     amounts. The recording of valid and accurate data into an application system is
     essential to provide for an effective system that produces reliable results. The
     controls in this area address financial information as well as other data elements.
     In addition to the input of accurate transactions, organizations must ensure
     changes made to master files and other critical system components are valid and
     accurate. Organizations should perform data validation and editing to identify
     erroneous data. Many of the programmed checks in this process also concern the
     validity and accuracy of data fields in a transaction record, including whether a
     data field has a valid code, such as a vendor code, used in a purchasing system.
     MSC accuracy application controls were not adequately designed or operating
     effectively.


Validity and Accuracy of Data
     MSC did not ensure that FMS data were valid and accurate. Specifically,
     management did not adequately design data entry features to contribute to validity
     and periodically test critical computations to contribute to data accuracy. MSC
     did not ensure that FMS data were valid and accurate because management did
     not establish or enforce data accuracy policies and procedures.
     Data Entry Design. MSC did not adequately design data entry features to
     contribute to data validity. NIST SP 800-12 describes techniques to determine
     the accuracy of data fields that include consistency and reasonableness checks
     and validation during data entry and processing. These techniques can check data
     elements against expected values or ranges of values; analyze transactions for
     proper flow, sequencing, and authorization; or examine data elements for
     expected relationships. MSC did not have any restriction on the quantity, price,
     or total fields on the FMS data entry forms. As a result of not having these design
     features, MSC is at risk of entering invalid data into the application. To mitigate
     this risk, MSC should develop and implement a policy that requires using the
     accuracy checks available in FMS to identify unreasonable transactions.

     Critical Computation Testing. MSC did not periodically test critical
     computations to contribute to data accuracy. The Joint Financial Management
     Improvement Program, “Forum Highlights: System Implementation Success
     Factors using COTS [commercial-off-the-shelf] Financial Systems,”

                                         43
    June 12, 2003, states to ensure a successful commercial-off-the-shelf system
    implementation, Joint Financial Management Improvement Program qualification
    testing should be viewed as “entry criteria.” Agencies should conduct
    supplemental testing to ensure that the financial management system meets their
    specific requirements, and to ensure adequate system performance. MSC only
    performed testing of critical computations when they installed a new version of
    FMS. As a result of not testing critical computations, MSC is at risk of
    intentional or unintentional changes to the system that could lead to reporting
    inaccurate financial data. To mitigate this risk, MSC should perform periodic
    testing of critical computations.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft recommendation H.1.b. to clarify the nature of the actions needed to
    improve existing management controls.

    H. We recommend that the Commander, Military Sealift Command:

           1. Develop and implement policies and procedures that require:

                 a. Accuracy checks available in FMS to be used to flag for
    review unreasonable entries posted in the quantity, price, or total fields; and

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    concurred. The Military Sealift Command has already taken action to develop
    “System Alerts” to alert the Accounting Officer when quantity, price, or total
    fields on Requisitions and Purchase Orders exceed reasonable limits.

    Audit Response. The Department of the Navy comments were partially
    responsive. The Director, Office of Financial Operations, Assistant Secretary of
    the Navy (Financial Management and Comptroller) did not identify the
    completion date(s) related to having the “System Alerts” in place. We request
    that the Department of the Navy provide milestones in its comments on the final
    report for having the “System Alerts” in place.

                  b. Periodic testing of critical computations.

    Management Comments. The Director, Office of Financial Operations,
    Assistant Secretary of the Navy (Financial Management and Comptroller)
    nonconcurred. The Military Sealift Command took exception to this
    recommendation because they use Oracle commercial-off-the-shelf software that
    is Joint Financial Management Improvement Program certified and untouched by
    Military Sealift Command personnel. They stated that the action taken in
    response to Recommendation H.1.a. will substantially strengthen controls.

    Audit Response. The Department of the Navy comments were partially
    responsive. We revised the recommendation to clarify the intent of the

                                       44
    recommendation. Modifications to software increase project risk exponentially,
    therefore, the additional control of periodically testing the critical computations
    would provide a control to mitigate the risk that a threat, either intentional or
    unintentional, could alter the system without being detected. The Director, Office
    of Financial Operations, Assistant Secretary of the Navy (Financial Management
    and Comptroller) did not identify the proposed action(s) and completion date(s)
    related to the periodic testing of critical computations. We request that the
    Department of the Navy reconsider its position by providing additional comments
    and a plan of action with milestones in its comments on the final report for the
    periodic testing of critical computations.


Management Comments Required
    In response to the final report, we request that management provide additional
    comments on the recommendations. The comments should include elements
    marked with an X in Table 9.


                       Table 9. Management Comments Required

                                                     Concur/      Proposed   Completion
     Recommendation            Organization         Nonconcur      Action      Date

     H.1.a.               Department of the Navy        —            —            X

     H.1.b.               Department of the Navy        X            X            X




                                        45
Appendix A. Scope and Methodology
   We performed a review of the design and operating effectiveness of the general
   and application controls over the MSC FMS at two MSC sites, Washington Navy
   Yard, Washington D.C., and Defense Finance and Accounting Service, Omaha
   from July 2005 through July 2006 in accordance with generally accepted
   government auditing standards. Specifically, we performed the following.

          •   We interviewed personnel at the MSC Program Management Office in
              Washington Navy Yard, Washington, D.C., and Defense Finance and
              Accounting Service Technical Services Organization in Omaha,
              Nebraska.

          •   We inspected documentation and observed activities supporting the
              effectiveness of the general and application controls at the MSC
              Program Management Office in Washington Navy Yard, Washington
              D.C., and Defense Finance and Accounting Service, Omaha.
          •   We reviewed and tested specific control activities in place or
              performed by personnel at the MSC Program Management Office in
              Washington Navy Yard, Washington D.C.

          •   We re-performed, using a test environment, selected automated control
              activities within the MSC FMS application.

          •   We obtained and inspected system settings, access, and the results of
              security readiness review assessments performed at the MSC Program
              Management Office in Washington Navy Yard, Washington D.C.

   We used the Government Accountability Office Federal Information System
   Controls Audit Manual, including Draft Chapter 4, “Evaluating and Testing
   Application Controls” to develop the procedures performed during this audit.
   Based on the Federal Information System Controls Audit Manual, the audit was
   divided into seven areas.

   The entity-wide security program planning and management area is the
   foundation on which all other general controls rely. Security program controls
   are divided into five critical elements that covered the assessing risk,
   documenting the security program plan, establishing a security management
   structure, implementing effective security related personnel policies, and
   monitoring the security program’s effectiveness.
   Physical and logical access controls reasonably protect the system and data from
   unauthorized modification, loss, and disclosure. Access controls are divided into
   four critical elements, which cover classification of information resources based
   on their criticality and sensitivity, access authorization, establishment of physical
   and technical controls, and monitoring of access.

   Change controls are defined as the establishment of controls over the modification
   of application software programs to ensure that only authorized system programs
   and modifications were implemented. This is accomplished by instituting

                                        46
policies, procedures, and techniques that helped make sure all programs and
program modifications are properly authorized, tested, and approved and that
access to and distribution of programs was carefully controlled.

System software includes programs that are designed to operate and control the
processing activities of computer equipment on which an application resides.
Generally, one set of system software is used to support and control a variety of
applications that run on the same computer hardware. System software helps to
control and coordinate input, processing, output, and data storage associated with
an application.

Segregation of duties refers to the separation of work responsibilities whereby
one employee supporting the application does not control all critical stages of a
process. The critical elements assess segregation of incompatible duties and
establishment of related policies, establishment of access controls to enforce
segregation of duties, and the control of personnel activities through formal
operating procedures and supervision and review.
Service continuity includes the protection of an activity’s resources, minimization
of opportunities for service interruption, and planning for service recovery. The
critical elements cover the assessment of the criticality and sensitivity of the
system, the steps needed to prevent and minimize possible interruptions,
development of a contingency plan, and test of the plan.

Application controls encompass both the automated processing contained within
the computer program code and the policies and procedures associated with user
activities. Application controls consist of four critical control areas covering
authorization controls, completeness controls, accuracy controls, and controls
over integrity of processing and data files.

The control objectives included within the scope of the audit were derived from
applicable laws and regulations.

The scope of this audit focused on controls at the MSC Washington Navy Yard,
Washington D.C., and the Defense Finance and Accounting Service, Omaha sites
for the processing of financial transactions within MSC FMS. The controls
assessed in this audit included controls associated with the input, processing, and
output of MSC FMS information, as well as the manual procedures used to
prepare and correct MSC FMS transactions. The controls contained within
systems other than MSC FMS were not included in the scope of this audit. We
did not assess general and application controls at the other MSC installations.
Throughout the audit, if policies and procedures did not exist or were not
provided we were unable to determine if MSC concurred with them. Due to these
scope limitations, we were unable to test several controls, including:

       •   updating and maintaining system documentation after a configuration
           change,

       •   access paths to the system,




                                    47
            •   the alternate data processing facility, and

            •   FMS edit checks and critical calculations.

     Use of Computer-Processed Data. We did not rely on computer-processed data
     to perform this audit. Rather, we assessed the general and application controls
     that involved computer-processed data.

     Government Accountability Office High-Risk Area. The Government
     Accountability Office has identified several high-risk areas in DoD. This report
     provides coverage of the Protecting Federal Government's Information-Sharing
     Mechanisms, DoD Business System Modernization, and DoD Financial
     Management high-risk areas.


Prior Coverage
     During the last 5 years, the Naval Audit Service issued one report discussing the
     Military Sealift Command Financial Management System. Unrestricted Naval
     Audit Service reports can be accessed over the Internet at
     http://www.hq.navy.mil/.

Naval Audit Service
     Naval Audit Service Report No. N2002-0018, “Military Sealift Command
     Financial Management System,” December 18, 2001




                                          48
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation (PA&E)

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Military Sealift Command

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
National Security Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information policy, Intergovernmental Relations,
  and the Census




                                          49
Department of the Navy Comments




                    50
51
52
53
     Final Report
      Reference




     Revised
     Page 32




54
55
     Final Report
      Reference




     Revised
     Page 46




56
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Raymond D. Kidd
Edward A. Blair
Gregory M. Mennetti
Dwayne A. Coulson
Michael B. Dell
Devon R. Houston
Dea M. Algeo
Troy A. Robertson
April D. Taylor
Ann L. Thompson
